No. 20-107

In the Supreme Court of the United States
CEDAR POINT NURSERY
and FOWLER PACKING COMPANY, INC.,

Petitioners,
v.
VICTORIA HASSID, in her official capacity as Chair of the Agricultural Labor
Relations Board; et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE SOUTHEASTERN LEGAL FOUNDATION IN SUPPORT OF
PETITIONERS in the above-captioned case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for
the text, and 10 point for the footnotes, and this brief contains 3,356 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 2, 2020.
__________________________________
Robert H. Thomas
Damon Key Leong Kupchak Hastert
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
rht@hawaiilawyer.com
Counsel of Record for Amicus Curiae
Southeastern Legal Foundation

